GRETCHEN SIMS SWEEN, PH.D., J.D.
Attorney & Counselor at Law
PO Box 5083
Austin, TX 78763-5083
214.557.5779 (phone) / 512.548.2089 (fax)
gsweenlaw@gmail.com

December 8, 2020
Honorable Scott S. Harris
Clerk of the Court, Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Via: Docket of Charles Don Flores v. Texas, No. 20-5923 (Capital Case)
Re: Petitioner’s motion to delay distribution of the petition for a writ of certiorari under Rule
15.5 from December 21, 2020 to January 4, 2021
Dear Mr. Harris:
I write on behalf of my client, Petitioner Charles Don Flores seeking a two-week extension of the
grace period for distribution of this case under Rule 15.5.
Respondent (the State of Texas) filed its brief in opposition to the petition for writ of certiorari in
the above-captioned case on December 7, 2020. Therefore, the 14-day extension period would end
on December 21, 2020. According to the Court’s calendar, the first distribution date for in forma
pauperis petitions following that day seems to be December 23, 2020. Pursuant to the Court’s
March 19, 2020 Order and its Guidance Concerning Clerk’s Office Operations dated November
13, 2020, Petitioner respectfully asks that the Court delay distribution of this petition by two
weeks, through January 4, 2021, thereby allowing Petitioner to file a reply brief on or before that
date. This extension would permit distribution on January 7, 2021 in time for the January 22, 2021
conference.
Petitioner requests this additional time in light of substantial disturbances caused by the COVID19 pandemic. Undersigned counsel has conferred with Respondent’s counsel about the relief
requested; Respondent does not oppose this request.
Yours most sincerely,
/s/
Gretchen Sween, Attorney at Law
Cc: Jaclyn O’Connor Lambert, Counsel of Record for Respondent

